HHS/OIG-Audit--"Report of Costs Allocated to the Title IV-E Foster Care Program, (A-07-97-01027)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Report of Costs Allocated to the Title IV-E Foster Care Program,"
(A-07-97-01027)
June 11, 1997
Complete Text of Report is available in PDF format
(81 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report evaluated costs charged to the Missouri Title IV-E Foster
Care Program as a result of including certain ineligible children during the
period January 1, 1992 through December 31, 1996. This review focused on issues
identified during a prior audit. The Missouri Department of Social Services
used allocation rates to compute certain categories of costs for reimbursement
under the Title IV-E Foster Care Program. This review determined that $1,233,855
($641,149 Federal financial participation (FFP)) was not allowable. The state
concurred with our recommendation.